No.

20-6028
IN THE
\
;

SUPREME COURT OF THE UNITED STATES
'<■- 'vV- l.

c?::

CARMENCITA MARIA PEDRO

pro se PETITIONER
vs.
CITY FITNESS, LLC; KENNETH DAVIES, Personally and in His Professional Capacity;
CARL GEIGER, Personally and in His Professional Capacity! STEPHANIE HICKS,
Personally and in Her Professional Capacity! JEFF QUINN, Personally and in His
Professional Capacity! KATHRYN BLESSINGTON, Personally and in Her Professional
Capacity and Bombay Yoga Company! RUBEN DIAZ, Personally and in His Professional
Capacity! EVIN FORD, Personally and in His Professional Capacity! JANET HARRISFORD, Personally and in Her Professional Capacity! GAIL KOTEL, Personally and in Her
Professional Capacity! KRISTINA SYMBULA, Personally and in Her Professional
Capacity! HARRISON TREEGOOB, Personally and in His Professional Capacity! ANNE
ROGERS! STEPHANIE STOYER! EDITA ZLATIC-STUCKEY; MAXWELL STUCKEY;
1148 WHARTON STREET FITNESS, LLC; 400 WALNUT STREET FITNESS, LLC,
Any/All Other Affiliated Entities Doing Business as City Fitness Philadelphia! FIT PERX,
LLC! CITY FITNESS MANAGEMENT, INC.! C. RICHARD HORROW, ESQUIRE,
Personally and in His Professional Capacity! MARIE HILFERTY, Personally and in Her
Professional Capacity! 2101 SOUTH STREET FITNESS, LLC!
BOMBAY YOGA COMPANY
RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
PETITION FOR WRIT OF CERTIORARI

CARMENCITA MARIA PEDRO
P.O. Box 15616, 541 North Paxon Street
Philadelphia, PA 19131
(267) 670-3721
carmencitanedro@gmail.com
FRIDAY, 9 OCTOBER 2020

1

QUESTIONS PRESENTED
1. If United States District Court Judges are: (a.) unable to “decipher”ox discern the
falsity, inauthenticity, illegitimacy and invalidity of The FORGERY1 and other
forged documents and fabricated evidence due to their physical and/or mental
disabilities; or (b.) unwilling to declare The FORGERY and other forged
documents and fabricated evidence to be the fakes and phonies that they actually
are as an unlawful consequence of their outright misconduct; or (c.) a combination
of both scenarios (a.) and (b.), then how can any party or any member of the
general public have confidence in the federal judiciary or trust that federal judges
are faithfully discharging their solemn duty to equal protection under law
pursuant to the Constitution of the United States or believe that federal judges
possess the necessary ability, wherewithal and commitment to afford due process
to all and make legally sound evidentiary determinations in all civil actions and
criminal cases where they preside with the power to render life and death
decisions that affect the rights, liberties, freedoms and property of the parties
appearing before them and the general public at large?
2. If United States Courts of Appeals are: (a.) unwilling to declare The FORGERY
and other forged documents and fabricated evidence to be the fakes and phonies
that they actually are as an unlawful consequence of their outright misconduct;
or (b.) unwilling to uphold the integrity and independence of the federal judiciary
by enforcing the rule of law and holding United States District Courts and the
attorneys and parties who appear before them legally accountable to the law to
pursuant to the Constitution of the United States; or (c.) a combination of both
scenarios (a.) and (b.) then how can any party or any member of the general public
have confidence in the federal judiciary or trust that federal judges are faithfully
discharging their solemn duty to equal protection under law or believe that federal
judges possess the necessary ability, wherewithal and commitment to afford due
process to all and make legally sound evidentiary determinations in all civil
actions and criminal cases where they preside with the power to render life and
death decisions that affect the rights, liberties, freedoms and property of the
parties appearing before them and the general public at large?

xThe FORGERY appears supra at p. 13, and it is also hereby attached hereto, incorporated
into and made part hereof, by reference, as though set forth and full herein at Appendix E,
together with Ms. Pedro’s sworn Affidavit dated 23 May 2019 attesting to its
overwhelmingly apparent facial falsity and inauthenticity and her Herring 4-Prong
Analysis of Intentional Fraud on Court - all of which was filed of record in the United States
Court of Appeals for the Third Circuit on 24 May 2019 with a cover letter addressed to the
Clerk of Court.

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

RELATED CASES

United States District Court for the Eastern District of Pennsylvania

2:l3-cv-07566-JHS
2:20-cv-01397-JHS
2:l7-cv-03542-JHS
2:i8-cv-05660-JHS

United States Court of Appeals for the Third Circuit

• USCA Case No. 17-01525
• USCA Case No. 18-01799

TABLE OF CONTENTS

OPINIONS BELOW

Page 1

JURISDICTION

Page 1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Page 2

STATEMENT OF THE CASE

Page 3 — 25

REASONS FOR GRANTING THE WRIT

Page 26 — 39

CONCLUSION

Page 39

CERTIFICATE OF SERVICE

Page 41

INDEX TO APPENDICES
APPENDIX A

Opinion and Judgment of the U.S. Court of Appeals for the Third Circuit
20 February 2020

APPENDIX B

Order of the U.S. Court of Appeals for the Third Circuit
Denying Rehearing — 12 May 2020

APPENDIX C

Opinion and Orders of the U.S. District Court for the Eastern District of
Pennsylvania — 30 March 2018 and 17 February 2017

APPENDIX D

Opening Appellant Brief - 1 April 2019

APPENDIX E

Letter to the Clerk of Court for the U.S. Court of Appeals for the Third
Circuit together with The FORGERY, the Sworn Affidavit Executed on
23 May 2019 by Carmencita Maria Pedro, and the Herring 4*Prong
Analysis of Intentional Fraud on Court
Filed on 24 May 2019
Appellant Reply Brief — 8 July 2020

APPENDIX F
APPENDIX G

Petition for Rehearing En Banc on the Fraud on the Court Attorneys
Successfully Committed in Civil Action No. 15-04964 Predicated on
Forgery and Fabrication of Evidence Pursuant to Fed. R. App. 35(a)(1)
5 March 2020

APPENDIX H

Motion to Stay the Mandate Pending the Filing of a Petition for Writ of
Certiorari in the United States Supreme Court Pursuant to
Fed. R. App. 41(d)(1) — 1 June 2020

APPENDIX I

Reply Brief in Support of the Motion to Stay the Mandate Pending the
Filing of a Petition for Writ of Certiorari in the United States Supreme
Court Pursuant to Fed. R. App. 41(d)(1) - 10 June 2020

APPENDIX J

Motion for Leave of Court to Correct Errors and Omissions in District
Court Record Pursuant to Fed. R. Civ. P. 60(a) and Motion for Stay of
Appellate Briefing Schedule Pending Redress - 6 August 2018

APPENDIX K

Sworn Affidavit of Carmencita Maria Pedro Executed 6 August 2018
Filed on 7 August 2018
Reply Brief in Support of Motion for Leave of Court to Correct Errors and
Omissions in District Court Record Pursuant to Fed. R. Civ. P. 60(a) and
Motion for Stay of Appellate Briefing Schedule Pending Redress
4 September 2018

APPENDIX L

APPENDIX M

APPENDIX N
APPENDIX O

Motion for Default Judgment Against the Defendants Pursuant to the
Doctrines of Unclean Hands, Fraud on the Court, Corrupt Endeavors to
Deceptively Influence the Court and Obstruction of the Administration of
Justice and the Memorandum of Law, Exhibits
(collectively “Motion for Default Judgment”)
12 January 2018
Reply Brief in Support of Motion for Default Judgment
2 February 2018
Response in Opposition to the Defendants’ Motions to Dismiss the
Plaintiffs Second Amended Complaint — 2 October 2017

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBERS

Hazel-Atlas Co. v. Hartford Co., 322 US
238 (Supreme Court 1944)

See Reasons for Granting the Writ
at p. 26 - 39

Herrins v. US, 424 F 3d 384 (3rd
Circuit 2005)

See Reasons for Granting the Writ
at p. 26 - 39

In re- Bressman, 874 F. 3d 142 (3rd
Circuit 2017)

See Reasons for Granting the Writ
at p. 26 - 39

Youns v. Smith. 905 F 3d 229 (3rd
Circuit 2018)

See Reasons for Granting the Writ
at p. 26 ■ 39.

Orie v. Dist. Attv. Allesheny County,
942 F. 3d 151 (3rd Circuit. 2019)

See Reasons for Granting the Writ
at p. 26 - 39.

STATUTES AND RULES

18 U.S.C. § 1512 - Witness Tampering
18 U.S.C. § 1503 — Obstructing Federal Courts
18 U.S.C. § 371 - Conspiracy to Obstruct
18 U.S.C. § 1341 - Obstruction by Mail Fraud
Fed. R. Evid. Rule 901 - Authenticating and Identifying Evidence
Rules of Attorney Disciplinary Enforcement
Pennsylvania Rules of Professional Conduct

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner is a natural born citizen of the United States who respectfully prays that a writ of certiorari
issue to review the judgment below in her capacity as the prosecuting party, witness and victim in the
civil rights cause of action presently at the bar of this Court.

OPINIONS BELOW
The Opinion of the United States Court of Appeals for the Third Circuit appears at
Appendix A to the Petition and it is unpublished.

The Opinion of the United States District Court for the Eastern District of Pennsylvania
appears at Appendix C to the Petition and it is unpublished.

JURISDICTION
The date on which the United States Court of Appeals for the Third Circuit (“Third
Circuit”) decided my case was 20 February 2020.
A timely Petition for Rehearing was denied by the United States Court of Appeals on the
following dated: 12 May 2020, and a copy of the order denying rehearing appears at
Appendix B to the Petition.

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Due Process Clauses of the Fifth and Fourteenth Amendment of the
United States Constitution

Amendment V
“No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment ofa grandjury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war or public danger/ nor shall
any person be subject for the same offense to be twice put in jeopardy oflife or limb; nor
shall be compelled in any criminal case to be a witness against himself, nor be deprived of
life, liberty, or property, without due process oflaw,' nor shall private property be taken for
public use, without just compensation. ”

Amendment XIV - Section 1
“All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No state
shall make or enforce any law which shall abridge the privileges or immunities ofcitizens
of the United States,' nor shall any state deprive any person oflife, liberty, or property,
without due process oflaw! nor deny to any person within its jurisdiction
the equal protection of the laws. ”

Refer to Reasons to Grant the Petition at p. 26 - 39.

2

STATEMENT OF THE CASE
The 7-year history of litigation in Pedro v. City Fitness. LLC.. et al. was initially
commenced by Carmencita Maria Pedro on, or about 23 December 2013 as a civil rights
cause of action that was filed in the United States District Court for the Eastern District of
Pennsylvania (“District Court”) [Civil Action No. 13-07566] and subsequently dismissed
without prejudice for failure to prosecute, and later refiled on 3 March 2015 under Civil
Action No. 15-04964 at which time the case was reassigned to United States District Court
Judge Joel H. Slomsky.1
On 23 August 2017, Attorney Rufus Jennings intentionally filed The FORGERY2 of
record on the Civil Docket Report of Civil Action No. 15-04964 at Document No. 60-3,
p. 3 - 4, where he marked it “Exhibit C,” and Attorney Jennings intentionally attached
The FORGERY to the City Fitness Motion to Dismiss [Document No. 60], and Attorney
Jennings intentionally served The FORGERY upon Ms. Pedro through the United States
Postal Service. At all times relevant Attorney Jennings has known of The FORGERY’S
falsity, inauthenticity,

illegitimacy and invalidity,

in particular,

the fact that

The FORGERY contains fraudulent signatures that do not belong to Ms. Pedro. Yet,
The FORGERY on its face explicitly identifies Ms. Pedro and her employment with City
Fitness as the subject matter of the fabricated employment document that is titled “City
Fitness New Hire Info Sheet” and explicitly identifies “Carmencita Pedro” as an “Employee”
of City Fitness, LLC., and it expressly requires the identified “Employee” - “Carmencita

i

In this matter, Ms. Pedro refers to the District Court as a singular entity of the federal
judiciary - which is a vital institution of our American legal system - and to Judge Slomsky
as an individual jurist.
2 The FORGERY is inserted infra at p. 13 and attached hereto as part and parcel of
Appendix E.
3

Pedro” - to affix her signature and printed/handwritten name to the face of The FORGERY
to falsely and deceptively signify Ms. Pedro’s acceptance with the employment terms set
forth therein.
At all times relevant thereafter, Attorney Jennings has knowingly, willfully,
repeatedly and falsely pled in furtherance of The FORGERY and Ms. Pedro has lawfully
and rightfully accused him of criminal wrongdoing consistently and continuously for the last
three (3) years, as he is complicit in and culpable for intentionally manufacturing false
creation of The FORGERY that he has deliberately misrepresented as a true and correct,
authentic, legitimate, valid employment document pertaining to Ms. Pedro and the work
she performed for City Fitness, LLC.
On 2 October 2017, Ms. Pedro first reported The FORGERY to Judge Slomsky at
p.7-9 of Document No. 64, which is her Response in Opposition to the Defendants’ Motions
to Dismiss filed on 23 August 2017 (Document No. 60), specifically, as follows:
“...Interestingly, Exhibit C, entitled “City Fitness New Hire Info Sheet” identifies
MS. PEDRO as an “Employee” of DEFENDANT CITY FITNESS. It is also undated
and contains forged signatures on the lines designated “Employee Print” (name) and
Employee “Signature...” MS. PEDRO requests that the Court take judicial notice of
her signature as it appears on her pleadings, correspondence and the U.S. District
Court forms she has completed during this case in comparison with Exhibit C to
confirm the veracity of her assertions that the Defendants have indeed manufactured
forged documents that they have now submitted to Court as false evidence
[sic]...Therefore, Exhibit C can and should be used to impeach the Defendants fouryear contention that MS. PEDRO “was never an employee of City Fitness.” as its very
own Exhibit C contradicts their long-standing legal position and it goes to its state of
mind and what it truly believed and knew to be true, that is, MS. PEDRO was at all
times relevant an employee of DEFENDANT CITY FITNESS - not an independent
contractor. Mr. Jennings had an affirmative legal obligation to ensure the
authenticity of the evidence he presented to the Court. To that end, he could have
and should have just as easily compared signatures on his Exhibit C to MS. PEDRO’s
actual signature and how she actually prints her name, as both are part and parcel
of the public record of this case. His failure to do so and the fact that his failure has
resulted in the submission of forged documents to the Court [sic]. His conduct is a
4

flagrant violation of the Pennsylvania Rules of Professional Conduct governing Rule
3.3 Candor Toward Tribunal; Rule 3.4 Fairness to Opposing Party and Counsel; and
Rule 8.4 Misconduct, for which he should be disciplined.”
Subsequently, Ms. Pedro reported The FORGERY and the fraud upon the court to
Judge Slomsky on 12 January 2018 and 2 February 2018 by and through the filings of her
Motion for Default Judgment Against the Defendants Pursuant to the Doctrines of Unclean
Hands. Fraud on the Court. Corrupt Endeavors to Deceptively Influence the Court and
Obstruction of the Administration of Justice and the Memorandum of Law, Exhibits
(collectively “Motion for Default Judgment”), and the Reply Brief in support thereof.
Ms. Pedro reported the falsity of The FORGERY and the fraud upon the court that
was underway during the legal proceedings in Civil Action No. 15-04964 to Judge Slomsky
in writing not once, not twice, but thrice between 2 October 2017 and 30 March 2018, as
evidenced by the Civil Docket Report at Document Nos. 64, 69 and 78. After Judge Slomsky
stood silent for six months from October 2017 through March 2018, he emerged on 30 March
2018, at which time he denied Ms. Pedro’s request for an evidentiary hearing, denied her
Second Amended Complaint, and summarily denied her Motion for Default Judgment, as
evidenced by his Opinion and Order at Document Nos. 82 and 83.
In his final act of intentional retaliation against Ms. Pedro for reporting the
commission of federal criminal acts by Deasey, Mahoney & Valentini, LTD., Attorney
Jennings and Defendant City Fitness, LLC., et al. in Civil Action No. 15-04964, Judge
Slomsky threw her out of court by dismissing her entire lawsuit with prejudice by the Final
Order he entered on 30 March 2018 predicated on The FORGERY, and his erroneous ruling
that her legal claims of forgery had no merit, and his unlawful proclamation that forgery

5

was permissible under his “law of the case” doctrine, and his asserted ability to correctly
“decipher”her legal claims, as follows:
1. As to his stated ability to correctly “decipher” the validity of Ms. Pedro’s well-pled
legal claims and the authenticity of evidence of record, Judge Slomsky ruled that:
“...the Court is able to decipher the claims made in the SAC by reading it liberally
and in the light most favorable to Plaintiff But in so doing, the Court finds that the
SAC fails to state claims upon which relief can be granted under Rule
12(b)(6)... ’5 [Emphasis supplied.]
2. As to his stated ability to correctly “decipher” Ms. Pedro’s well-pled legal claims of
illegal nonpayment of the federal minimum wage, fabrication of legally significant
evidence and deliberate false statements of material facts in furtherance of The City
Fitness Tax Fraud and Tax Evasion Scheme, Judge Slomsky accepted The FORGERY
as an authentic, legitimate document, and he directly referenced and relied upon The
FORGERY in support of his ruling that: “...In August 2012, Defendant Geiger hired
Plaintiff as the Group Exercise Manager. (Id. at 21 f 91.) Plaintiff earned an extra
$150 per pay period for this position. (Id. at 22 f 93; Doc. No. 60, Ex. C.I...
3. As to his stated ability to correctly “decipher” Ms. Pedro’s well-pled legal claims of
illegal nonpayment of the federal minimum wage, fabrication of legally significant
evidence and deliberate false statements of material facts in furtherance of The City

3 Appendix C at p. 11 — 12.
4 “Doc. No. 60, Ex. C.” cited by Judge Slomsky is The FORGERY at Document No. 60-3, p. 3
- 4, “Exhibit C” [Civil Action No. 15-04964]. See p. 13 and Appendix E infra.
5 Appendix C at p. 4.
6

Fitness Tax Fraud and Tax Evasion Scheme, Judge Slomsky ruled that: “...In Count
IV of the SAC, Plaintiff sets forth claims, albeit again under numerous statutes,
alleging that City Fitness failed to provide her with overtime compensation and paid
her less that minimum wage for work performed as Group Exercise Manager (Doc.
No. 58 at 22 f 93,' 26 — 27 ff 118-130) Plaintiff alleges that she worked “full-time
hours” as a Group Exercise Manager at City Fitness and City Fitness failed to pay
her minimum wage for hours she worked... ’G
4. As to his stated ability to correctly “decipher” Ms. Pedro’s well-pled legal claims of
illegal misclassification as an independent contractor and false statements of
material facts, Judge Slomsky ruled that-'".. In Count III ofthe SAC, Plaintiffasserts
that she and other fitness instructors were misclassified as independent contractors.
(Doc. No. 58 at 131-33) Defendants argue to the contrary that... Plaintiff was never
an employee of City Fitness...In her Response, Plaintiff asserts that she was an
employee. (Doc. 64 at 41) The Court agrees with Defendants on this claim... ’*
5. As to his ability to his stated ability to correctly “decipher”Ms. Pedro’s well-pled legal
claims of forgery, falsification of evidence of legal significance and false statements of
material facts, Judge Slomsky ruled that: “...In her Response, Plaintiff asserts that
the exhibits have not been properly authenticated or were forged.8 (Doc. 64
passim)... Under the ‘law of the case’ doctrine, ‘when a court decides upon a rule of

6 Appendix C at p. 23.
7 Appendix C at p. 21.
8

The FORGERY to which Judge Slomsky refers in Paragraph #5 supra appears infra at
p. 13 and Appendix E.
7

law, that decision should continue to govern the same issues in subsequent stages in
the same case’...because it is now the law of the case,’ Plaintiffs claims regarding
Defendants attached exhibits are without merit... ’9
On 30 March 2018, Judge Slomsky not only opined that Ms. Pedro’s legal claims of
The FORGERY are meritless, but he acted with intentionality in turning a willful blind eye
to the facts, the evidence, the truth and the rule of law choosing instead to falsely create a
“law of the case doctrine” as a machination to suppress clear, unequivocal and convincing
evidence proving that the Respondents — City Fitness, LLC., et al. — and their legal counsel
Deasey, Mahoney & Valentini, LTD. and Attorney Rufus Jennings conspired with others
known and unknown and committed multiple federal criminal acts during, in connection
with and collateral to the legal proceedings under his jurisdiction and authority that
centered on forging Ms.

Pedro’s

signature

and printed/handwritten name

on

The FORGERY, which is fabricated evidence of legal significance to the litigation vis-a-vis
two federal questions of law pertaining to Ms. Pedro’s valid legal claims oP 1.) the illegal
misclassification of employees as independent contractors, and 2.) the illegal nonpayment
of the federal minimum wage. All the above is overwhelmingly apparent and substantiated
on the very face of The FORGERY. By and through his rulings:
1. Judge Slomsky has unlawfully proclaimed that under his falsely created “law of the
case doctrine, "forgery, fabrication of evidence, deliberate false statements of material
facts and intentional fraud are permissible and authorized in legal proceedings under
his jurisdiction.

9

See Appendix C at p. 28.
8

2. Judge Slomsky has unlawfully proclaimed that Ms. Pedro has absolutely no legal
right whatsoever to challenge the authenticity, legitimacy or veracity of any
evidentiary documents Deasey, Mahoney & Valentini, LTD., Attorney Jennings and
City Fitness, LLC., et al. should ever choose to submit in legal proceedings under his
jurisdiction and authority for perpetuity.
3. Judge Slomsky unlawfully granted Deasey, Mahoney & Valentini, LTD., Attorney
Jennings and City Fitness, LLC., et al. judicial authorization to forge Ms. Pedro’s
signature and printed/handwritten name on legally significant evidence that they
fabricated and have falsely pled in furtherance of for the last three (3) years, and
which they admittedly maintain in a secret personnel file and admittedly file in
federal court for false, improper and illegal purposes, as pled in the City Fitness
Appellee Brief filed in the Third Circuit on 29 April 2019.
4. Judge Slomsky unlawfully granted Deasey, Mahoney & Valentini, LTD., Attorney
Jennings and City Fitness, LLC., et al. judicial authorization to continue their
ordinary custom, habit, pattern and egregious practice of outright lying to the Court,
willfully breaking the law and flouting the rules of court in legal proceedings under
his jurisdiction.
5. Judge Slomsky unlawfully aided and abetted Deasey, Mahoney & Valentini, LTD.,
Attorney Jennings and City Fitness, LLC., et al. in the commission of multiple federal
criminal acts in legal proceedings under his jurisdiction and authority whether due
to his physical and/or mental disability or as an unlawful consequence of his outright
misconduct or a combination thereof.

9

Notwithstanding his full and complete knowledge of The FORGERY’S falsity,
inauthenticity, illegitimacy and invalidity both contemporaneous with and subsequent to
intentionally filing The FORGERY of record on the Civil Docket Report of Pedro v. City
Fitness. LLC. [Civil Action No. 15-04964] on 23 August 2017, Attorney Jennings has
willfully pled false statements of material facts in furtherance of The FORGERY for the
advancement of lies and legal positions that promote the ill-gotten financial, business,
professional, personal and reputational gains of his clients — City Fitness, LLC., et al. — for
the admitted purpose of intentionally deceiving Judge Slomsky into falsely believing that
The FORGERY was a true, correct, authentic, legitimate and valid employment document
pertaining to Ms. Pedro and the work she performed for City Fitness, LLC., which he pled
in the City Fitness Appellee Brief he filed of record on appeal before in the Third Circuit on
29 April 2019, as following:
“...Issue: Whether the District Court properly denied Appellant’s Motion for Default
Judgment, which was premised on an imagined fraud. Suggested Answer: Yes. As there
was no attempt to defraud the District Court and because the exhibit challenged by the
Appellant was not represented to contain her signature, the District Court properly
denied Appellant’s Motion for Default Judgement...In her Primary Brief, Appellant
spends an inordinate amount of time making allegations regarding a claim of “fraud” in
which counsel and the District Court allegedly were implicated...In connection with the
Motion to Dismiss, Appellees attached two (2) documents from Appellant’s personnel
file...The second exhibit was titled “New Hire Information Form” and identified the date
on which Appellant took on new duties as Group Fitness Leader. Appellant appears to
allege that the second exhibit contains a fraudulent signature. However, in their Brief,
Appellees never alleged that it contained Appellant’s signature. Appellees Motion to
Dismiss the Second Amended Complaint simply never alleged that Exhibit “C” contained
Appellant’s signature. Instead the document was attached solely to establish the
necessary timeline...In short, Appellees did not claim that Appellant signed Exhibit
C....”

10

Attorney Jennings knowingly and willfully pled admissions to the federal criminal acts
he conspired and committed with his clients - City Fitness, LLC., et al - and others known
and unknown, which has included intentionally manufacturing, filing, serving and pleading
in furtherance of The FORGERY for the last three (3) years in legal proceedings before both
the District Court and the Third Circuit, where they have succeeded in perpetrating
intentional fraud upon the court in two (2) separate instances, specifically:
A. In the first instance when Judge Slomsky dismissed Ms. Pedro’s entire lawsuit with
prejudice predicated upon his unlawful rulings that suppressed evidence proving that
multiple federal criminal acts were committed during, in connection with and
collateral to legal proceedings under his jurisdiction and authority. Instead, Judge
Slomsky defended, protected and exonerated Deasey, Mahoney & Valentini, LTD.,
Attorney Jennings and City Fitness, LLC., et al. of criminal wrongdoing and
inoculated them from facing criminal prosecution for their commission of multiple
federal criminal acts including, but not limited to forgery, falsification of evidence,
perjury and obstruction of justice.
AND
B. In the second instance when on appeal [Case No. 18-1799], the Third Circuit failed
and refused to adjudicate the Ms. Pedro’s well-pled and well-preserved legal claims
of The FORGERY, and fabrication of legally significant evidence, and deliberate false
statements of material facts and intentional fraud upon the court successfully
committed by Deasey, Mahoney & Valentini, LTD., Attorney Jennings and City
Fitness, LLC., et al. before Judge Slomsky in Civil Action No. 15-04964.

ll

Ultimately, Deasey, Mahoney & Valentini, LTD., Attorney Jennings and City
Fitness, LLC., et al prevailed upon the Third Circuit to leave Ms. Pedro’s well-pled and wellpreserved legal claims of intentional fraud on the court undecided on appeal, and it has
erroneously sanctioned the suppression of clear, unequivocal and convincing evidence of
their criminal wrongdoing both on appeal and on remand under Judge Slomsky’s falsely
created “law of the case doctrine, "where Civil Action No. 15-04964 has been pending since
the mandate issued on 18 June 2020.10
In sum, Deasey, Mahoney & Valentini, LTD., Attorney Rufus Jennings and their
clients - City Fitness, LLC., et al. - entered the legal proceedings of Civil Action
No. 15-04964 with unclean hands in a corrupt endeavor to intentionally defraud the District
Court for the improper purpose and unlawful objective of procuring the power and authority
of a federal court order for their individual and collective ill-gotten financial, business,
professional, personal and reputational gains and to aid and abet their clients with the
perpetuation of illegal business practices, the consummation of multi-million dollar
business contracts with sports teams and publicly traded companies, and the erection of
expansive gyms by obstructing the due administration of justice and deceptively influencing
the outcome of the litigation by duping Judge Slomsky with forged employment documents,
phony evidence and perjurious statements.

10 On appeal before the Third Circuit [Case No. 18-01799], Judge Slomsky was reversed as
to Ms. Pedro’s well-pled legal claims of racial discrimination.10 Hence, the pending remand
of Pedro v. City Fitness. LLC.. et al. in the District Court [Civil Action No. 15-04964].
12

Date Filed: 04/01/2019
Document: 003113201041 Page: 77
Date Filed: 08/07/2018
Case: 18-1799 Document: 003113004202 Page: 8
Case 2:15-cv-04964-JHS Document 60-3 Filed 08/23/17 Page 4 of 37

Case: 18-1799

FITflESS

CITYC

PHI UAPBLPH I A

New Hire Info Sheet
Employee Harney
Position;.
Hire Dates.
Location (pi'

^Omr>P Ox

n

[rdetmeb

Northern Ubt

South Street

Pay Structure (please drde one): r
Hourly
C Salary
Rate of Pay:.
Commission structure (please drde one ofthe following):
Draw vs Commission
Commission Plus

N/A

check Dates: 5* and 20* of every month

EMPLOYEE PRINT*.

DATE:

SIGNATURE:

SUPERVISOR PRINT:
SIGNATURE:.

DATEu

The silence, inaction and indecision of the Third Circuit in its failure and refusal to
adjudge Ms. Pedro’s legal claims of intentional fraud on the court gives the overwhelmingly
improper appearance of a judicial coverup that is intended to protect the professional
reputation of a single jurist - Judge Slomsky - thereby superseding its judicial duty to
uphold the rule of law and protect the integrity and independence of the federal judiciary as
an institution of our American legal system by acting with reckless disregard for the facts,
the evidence and the truths Ms. Pedro attested in her aforementioned sworn Affidavit:11
1. In the Primary Appellee Brief of City Fitness, et al. that was filed of record in the
United States Court of Appeals for the Third Circuit (“Third Circuit”) on 29 April 2019,
Deasey, Mahoney & Valentini, LTD. and Rufus Jennings pled the following averments
for, and on behalf of themselves and the Appellees:
“...Issued Whether the District Court properly denied Appellant’s Motion for Default
Judgment, which was premised on an imagined fraud. Suggested Answer: Yes. As there
was no attempt to defraud the District Court and because the exhibit challenged by the
Appellant was not represented to contain her signature, the District Court properly
denied Appellant’s Motion for Default Judgement...In connection with the Motion to
Dismiss, Appellees attached two (2) documents from Appellant’s personnel file...The
second exhibit was titled “New Hire Information Form” and identified the date on which
Appellant took on new duties as Group Fitness Leader. Appellant appears to allege that
the second exhibit contains a fraudulent signature. However, in their Brief, Appellees
never alleged that it contained Appellant’s signature. Appellees Motion to Dismiss the
Second Amended Complaint simply never alleged that Exhibit “C” contained Appellant’s
signature. Instead the document was attached solely to establish the necessary
timeline...In short, Appellees did not claim that Appellant signed Exhibit C....”
2. On 9 August 2017,1 filed my Second Amended Complaint (hereinafter “SAC”) of record
in the United States District Court for the Eastern District of Pennsylvania (“District
Court”) on the Civil Docket Report of Civil Action No. 15-04964 at Document No. 58.

11 Appendix E.
14

3. In my SAC, I affirmatively plead, inter alia, the following facts:
a. I was an Employee of City Fitness for the entire duration of my employment
commencing in August 2010 and ending on 16 December 2013.12
b. City Fitness, and its Principals, namely, Kenneth Davies, Carl Geiger, Stephanie
Hicks, Jeff Quinn, and C. Richard Horrow, illegally misclassified me as an
independent contractor for the entire duration of my employment in furtherance of
The City Fitness Tax Fraud and Tax Evasion Scheme.13
c. City Fitness, and its Principals, namely, Kenneth Davies, Carl Geiger, Stephanie
Hicks, Jeff Quinn, and C. Richard Horrow, paid me less than the federal minimum
wage for the full-time work I performed in the capacity of Group Exercise Manager
a/k/a “Group Fitness Leader” a/k/a “Group Ex Leader.”14
4. At some point in time prior to 23 August 2017, Deasey, Mahoney & Valentini, LTD.,
Rufus Jennings, Carla Maresca, Kenneth Davies, Carl Geiger, Stephanie Hicks, Jeff
Quinn and C. Richard Horrow manufactured a fraudulent employment document
entitled “City Fitness New Hire Info Sheet” that contains forgeries of my printed name
and signature on its face (hereinafter referred to as “The Forgery”).15

12 Refer to Second Amended Complaint [(SAC) - Pedro v. City Fitness, LLC., et al. - Civil
Action No. 15-04964, Document No. 58] at p. 14, ^ 14.
13 Refer to SAC at p. 13,1 6; p. 20,1 75; p. 21, f 92! p. 40 - 42, U 239 - 258.
14 Refer to SAC at p. 22, t 93; p. 26, t 122; p. 27,1f 124; p. 27, t 128; p. 40, U 245.
15 The Forgery is hereby attached hereto, incorporated into, and made part hereof, by
reference, as though set forth and full herein.
15

5. At some point in time prior to 23 August 2017, Deasey, Mahoney & Valentini, LTD.,
Rufus Jennings and Carla Maresca composed a Motion to Dismiss my SAC for, and on
behalf of City Fitness, et al. (hereinafter “Motion to Dismiss”).
6. On, or about 23 August 2017, Rufus Jennings executed his signature on the Motion to
Dismiss and Memorandum of Law at p. 8 and p. 38, respectively, before he filed the
documents of record in Civil Action No. 15-04964 at Document No. 60.
7. On 23 August 2017, Deasey, Mahoney & Valentini, LTD., Rufus Jennings and the
Appellees attached The Forgery to the Motion to Dismiss and filed it of record in Civil
Action No. 15-04964 as “Exhibit C” at Document No. 60-3, p.3-4.
8.

On 23 August 2017, Deasey, Mahoney & Valentini, LTD., Rufus Jennings and the
Appellees served me with a copy of The Forgery and the Motion to Dismiss through the
United States Postal Service, which is evidenced by the signature of Rufus Jennings
executed on the face of the Certificate of Service that he filed of record in Civil Action
No. 15-04964 at Document No. 60, p. 8.

9. On 23 August 2017, Deasey, Mahoney & Valentini, LTD., Rufus Jennings and the
Appellees advocated for The Forgery as material evidence of legal significance to the
proceedings in Civil Action No. 15-04964, which is evidenced by the averments pled in
their Motion to Dismiss at p. 14, specifically^
a. “Plaintiff accepted an additional payment of $150 per pay period for these additional
duties.”
b. “New Hire Info Sheet, attached hereto as Exhibit “C.”

16

10. On its face, The Forgery identifies me by name (“Carmencita Pedro”) as an “Employee”
of City Fitness on the line/space explicitly denoted as “Employee Name.”
11. On its face, The Forgery evidences that I was an “Employee” of City Fitness.
12. In their Motion to Dismiss at Document No. 60, p. 27, Deasey, Mahoney & Valentini,
LTD., Rufus Jennings and the Appellees falsely pled: “...Plaintiff was never an employee
of City Fitness...”
13. On its face, The Forgery explicitly requires my printed name and my signature on the
lines/spaces explicitly intended and expressly designated for me as the identified
“Employee” of City Fitness to whom the fraudulent employment document pertains.
14. I did not print my legal name — Carmencita Maria Pedro - nor did I print any fraudulent
names on the face of The Forgery in the spaces/lines explicitly intended and expressly
designated for my printed name as the identified “Employee” of City Fitness to whom
the fraudulent employment document pertains.
15. I have never authorized any persons or individuals to print my legal name - Carmencita
Maria Pedro - or affix any fraudulent names to the face of The Forgery on the
lines/spaces explicitly intended and expressly designated for my printed name as the
identified “Employee” of City Fitness to whom the fraudulent employment document
pertains.
16. On its face, The Forgery contains a fraudulent name on the line/space denoted as
“EMPLOYEE PRINT” that is explicitly intended and expressly designated for my
printed name as the identified “Employee” of City Fitness to whom the fraudulent
employment document pertains.
17

17. I did not sign my legal name - Carmencita Maria Pedro - nor did I sign any fraudulent
names on the face of The Forgery in the space/line explicitly intended and expressly
designated for my signature as the identified “Employee” of City Fitness to whom the
fraudulent employment document pertains.
18. I have never authorized any other persons or individuals to sign my legal name Carmencita Maria Pedro - or affix any fraudulent signatures to the face of The Forgery
on the lines/spaces explicitly intended and expressly designated for my signature as the
identified “Employee” of City Fitness to whom the fraudulent employment document
pertains.
19. On its face, The Forgery contains a fraudulent signature on the line/space denoted as
“SIGNATURE” that is explicitly intended and expressly designated for my signature as
the identified “Employee” of City Fitness to whom the fraudulent employment document
pertains.
20. I have never authorized any other persons or individuals to execute The Forgery or any
other documents pertaining to my employment with City Fitness.
21. City Fitness, LLC, et al., and its Principals and attorneys - namely: Kenneth Davies,
Carl Geiger, Stephanie Hicks, Jeff Quinn, C. Richard Horrow, Deasey, Mahoney &
Valentini, LTD., Rufus Jennings and Carla Maresca - never sought my authorization for
any other persons or individuals to execute The Forgery for, and/or on my behalf.
22. City Fitness, LLC, et al., and its Principals and attorneys - namely: Kenneth Davies,
Carl Geiger, Stephanie Hicks, Jeff Quinn, C. Richard Horrow, Deasey, Mahoney &

18

Valentini, LTD., Rufus Jennings and Carla Maresca - never obtained my authorization
for any other persons or individuals to execute The Forgery for, and/or on my behalf.
23. City Fitness, LLC, et al., and its Principals and attorneys — namely: Kenneth Davies,
Carl Geiger, Stephanie Hicks, Jeff Quinn, C. Richard Horrow, Deasey, Mahoney &
Valentini, LTD., Rufus Jennings and Carla Maresca — never sought and never obtained
my authorization for any other persons or individuals to execute any documents
pertaining to my employment with City Fitness from the beginning of time through the
present.
24. City Fitness, LLC, et al., and its Principals and attorneys - namely: Kenneth Davies,
Carl Geiger, Stephanie Hicks, Jeff Quinn, C. Richard Horrow, Deasey, Mahoney &
Valentini, LTD., Rufus Jennings and Carla Maresca - never sought and never obtained
my authorization for any other persons or individuals to act for, and/or on my behalf in
any matter pertaining to my employment with City Fitness.
25. City Fitness, LLC, et al, and its Principals and legal counsel — namely, Kenneth Davies,
Carl Geiger, Stephanie Hicks, Jeff Quinn, C. Richard Horrow, Deasey, Mahoney &
Valentini, LTD., Rufus Jennings and Carla Maresca - unlawfully authorized other
persons and individuals to execute documents pertaining to my employment with City
Fitness without my knowledge.
26. City Fitness, LLC, et al., and its Principals and attorneys — namely: Kenneth Davies,
Carl Geiger, Stephanie Hicks, Jeff Quinn, C. Richard Horrow, Deasey, Mahoney &
Valentini, LTD., Rufus Jennings and Carla Maresca - unlawfully authorized other

19

persons and individuals to execute documents pertaining to my employment with City
Fitness without my express oral or written consent.
27. In my SAC at p. 21,

90 — 91, I affirmatively and explicitly pled that in August 2012,

Carl Geiger hired me as the Group Exercise Manager for City Fitness, as follows^ “On,
or about 13 August 2012, MS. PEDRO met with DEFENDANT GEIGER at the Graduate
Hospital club. During their meeting, DEFENDANT GEIGER hired MS. PEDRO as the
Group Exercise Manager for both the Northern Liberties and Graduate Hospital clubs.”
28. In the City Fitness, et al. Motion to Dismiss at p. 14, Deasey, Mahoney & Valentini,
LTD., Rufus Jennings and Carla Maresca affirmatively pled that Carl Geiger hired me
as the Group Exercise Manager in August 2012 with direct reference to my SAC at p. 21,
t 90 - 91 at their footnote #25, as follows^ “In August 2012, Mr. Geiger assigned Plaintiff
the additional duties of Group Exercise Manager.”
29. It is undisputed that Carl Geiger hired me to commence the role of Group Exercise
Manager in August 2012.
30. The month and year August 2012 do not appear on the face of The Forgery.
31. On its face, The Forgery denotes my “Hire Date” as an “Employee” of City Fitness in the
“Position” of “Group Ex Leader” with a “?” question mark.
32. The Forgery is an undated document that does not “establish” any “timeline” of my “Hire
Date” or when I “took on new duties as Group Fitness Leader” a/k/a “Group Ex Leader”
a/k/a Group Exercise Manager.

20

33. The Forgery is an undated document that cannot ever “establish my “Hire Date” or any
“timeline” of when I “took on new duties as Group Fitness Leader” a/k/a “Group Ex
Leader” a/k/a Group Exercise Manager.
34. The “EMPLOYEE PRINT” and “SIGNATURE” on the face of The Forgery are undated.
35. The “SUPERVISOR PRINT” and “SIGNATURE” on the face of The Forgery are
undated.
36. Carl Geiger and Stephanie Hicks were my supervisors during my employment with City
Fitness.
37. The text scribed with redaction on the face of The Forgery that reads “Day of Change
3/15/...effective” is consistent with the handwriting of Stephanie Hicks.
38. The “SUPERVISOR PRINT” and all other handwriting on the face of The Forgery are
consistent with the handwriting of Carl Geiger.
39. On its face, The Forgery states that I was paid “$75.00 wkly,” and “$150.00 pay period”
on the “5th and 20th of every month” for the full-time work I performed forty (40) hours
per week as an “Employee” of “City Fitness” in the capacity of “Group Ex Leader” a/k/a
“Group Fitness Leader” a/k/a Group Exercise Manager.
40. On its face, The Forgery evidences that I was paid far below the federal minimum wage
for the full-time work I performed forty (40) hours per week as an “Employee” of “City
Fitness” in the capacity of “Group Ex Leader” a/k/a “Group Fitness Leader” a/k/a Group
Exercise Manager.

21

41. I did not create, author, supply, scribe or execute any information on the face of The
Forgery in any way whatsoever.
42. City Fitness, LLC, et al., and its Principals and attorneys - namely: Kenneth Davies,
Carl Geiger, Stephanie Hicks, Jeff Quinn, C. Richard Horrow, Deasey, Mahoney &
Valentini, LTD., Rufus Jennings and Carla Maresca - did not share, disclose or present
The Forgery to me during my employment with Defendant City Fitness from August
2010 until 16 December 2013.
43. The very first time I saw The Forgery was when Deasey, Mahoney & Valentini, LTD.
Rufus Jennings and the Appellees served it to me through the U.S. Postal Service on, or
about 23 August 2017, which is evidenced by the Certificate of Service executed by Rufus
Jennings and attached to the Motion to Dismiss at Document No. 60, p. 8.
44. As of the date and time of this Affidavit, Deasey, Mahoney & Valentini, LTD., Rufus
Jennings, Carla Maresca, and the Appellees have never denied illegally forging my
printed name and signature on The Forgery.
45. As of the date and time of this Affidavit, Deasey, Mahoney & Valentini, LTD., Rufus
Jennings, Carla Maresca, and the Appellees have never denied illegally manufacturing
The Forgery as fabricated evidence of legal significance to the proceedings in Civil Action
No. 15-04964.
46. As of the date and time of this Affidavit, Deasey, Mahoney & Valentini, LTD., Rufus
Jennings, Carla Maresca, The Danek Law Firm, LLC., Mark Danek, and the Appellees
have never defended the authenticity of The Forgery.

22

47. As of the date and time of this Affidavit, Deasey, Mahoney & Valentini, LTD., Rufus
Jennings, Carla Maresca, The Danek Law Firm, LLC., Mark Danek, and the Appellees
have never pled mistake, inadvertence, or negligence in connection with The Forgery
and their fabrication of evidence, and they have failed and refused to take any remedial
measures to correct their false representations and rectify their fraud on the court.
48. I reported The Forgery of my printed name and signature on evidence of legal
significance and the fraud perpetrated on the court in Civil Action No. 15-04964 to the
U.S. Department of Justice, Federal Bureau of Investigation as the prosecuting party,
witness and victim.
In her sworn Affidavit, Ms. Pedro effectively rebuts the assertions made by Attorney
Jennings on 29 April 2020.16 Although Ms. Pedro’s legal claims of intentional fraud upon
the court, forgery, falsification of evidence and deliberate false statements of material facts
are well-pled in the Opening Appellant Brief she filed of record in the Third Circuit on
1 April 2019 and also well-preserved throughout the entire record of Pedro v. City Fitness,
LLC., et al., the appellate court failed and refused to adjudicate those legal claims in what
appears to be a judicial coverup that impugns the integrity of the federal judiciary and
sacrifices its independence to protect the judicial reputation of Judge Slomsky, which has
had the practical effect (whether desired or unintended) of emboldening attorneys and
defendants to continue acting with impunity in egregiously breaking the law and brazenly
flouting the rules of court - whereby the Third Circuit erroneously opined the following in
its Judicial Opinion published on 20 February 2020:

16 Appendix E.
23

“The Honorable Joel H Slomsky has presided over the District Court proceedings in
this case. On appeal, Pedro takes issue with Judge Slow sky's handling of the case,
alleging, inter alia, that he is not trustworthy, is biased against her, and has aided
and abetted fraudulent activities committed by the appellees’ attorneys. We find no
merit to these allegations, and we see no reason for this case to be reassigned to a
different district judge on remand. ” (internal quotations omitted.)
Effective with Judge Slomsky’s dismissal of Ms. Pedro’s entire lawsuit with prejudice
on 30 March 2018 in Pedro v. City Fitness. LLC. etal.. Deasey, Mahoney & Valentini, LTD.
Attorney Jennings and City Fitness, LLC., et al. and their co-conspirators succeeded in their
corrupt endeavor to intentionally defraud the District Court and obstruct the due
administration of justice. Judge Slomsky’s handling of the case is not demonstrative of
conduct that is trustworthy, unbiased, impartial or fair towards Ms. Pedro in any way
whatsoever. For these reasons, Ms. Pedro vehemently objected to remand before Judge
Slomsky on appeal before the Third Circuit.
Despite the fact that the Third Circuit left Ms. Pedro’s legal claims of forgery,
falsification of evidence, deliberate false statements of material facts and intentional fraud
upon the court undecided on appeal in Case No. 18-01799, the truth still exists, and the
truth is still a matter of public interest that begs the following overarching questions
presented supra.
All the above considered singularly and taken on the whole constitutes clear,
unequivocal and convincing evidence of intentional fraud upon both the District Court and
the Third Circuit that remains ongoing and has recently escalated on remand to include the
following incidents of retribution against Ms. Pedro for serving as a zealous, tenacious,
vociferous and unapologetic civil rights advocate:

24

A. In July 2020, Deasey, Mahoney & Valentini, LTD., Attorney Jennings and their
clients - City Fitness, LLC. - caused the hand-delivery of fecal matter to Ms. Pedro’s
doorstep as a heinous act of intentional racial intimidation and hostile sexist
harassment that is construed and treated as a yet another corrupt endeavor to
obstruct justice by intentionally deterring and subverting her from fully, fairly and
meaningfully participating in the litigation and prosecuting her civil rights lawsuit.
B. In September 2020, the Office of the Clerk of Court for the District Court failed and
refused to docket Ms. Pedro’s pleadings and legal papers of record on the Civil Docket
Report of Pedro v. City Fitness. LLC., et al. - Civil Action No. 15-04964.

25

REASONS FOR GRANTING THE PETITION
Prior to his elevation to the Supreme Court, Associate Justice Samuel Alito sat on
the Third Circuit as a Circuit Judge, who was part of the 3-member panel that heard and
decided Herrins v. USA, 424 F.3d 384 (3rd Circuit 2005), wherein the Third Circuit ruled,
inter alia, the following:
“...Actions for fraud upon the court are so rare that this Court has not previously had
the occasion to articulate a legal definition of the concept. The concept offraud upon
the court challenges the very principle upon which our judicial system is based-' the
finality of a judgment... In order to meet the necessarily demanding standard for
proofoffraud upon the court we conclude that there must be- (l) an intentional fraud;
(2) by an officer of the court/ (3) which is directed at the court itself and (4) in fact
deceives the court... We further conclude that a determination offraud on the court
may be justified only by “the most egregious misconduct directed to the court itself,”
and that it “must be supported by clear, unequivocal and convincing evidence. ”In re
Coordinated Pretrial Proceedings in Antibiotic Antitrust Actions, 538 F.2d 180, 195
(8th Cir. 1976) (citations omitted)...” [Emphasis supplied.]
Unfortunately, fraud on the court is no longer rare in the Third Circuit. Today, the
Third Circuit has so far departed from the accepted and usual course of judicial proceedings
and sanctioned such a departure by the District Court as to call for an exercise of this Court's
supervisory power. In fact, fraud upon the court is now commonplace in the Third Circuit.
Within the last four (4) years, attorneys perpetrating intentional fraud on the court has
become prevalent in legal proceedings before the Bankruptcy and District Courts within the
Third Circuit and now on appeal before the Third Circuit itself such that the appellate court
appears to be desensitized to its occurrences, as evidenced by the outcome of Pedro v. City
Fitness. LLC., et al. (3rd Circuit 2020) which arose contemporaneous with the existence of
and facts in In re- Pressman, 874 F3d 142 (3rd Circuit 2017) and Younsv. Smith. 905 F.3d
229 (3 d Circuit 2018).

26

In the signed, precedential Opinions the issued by the Third Circuit In re- Bressman
and Young v. Smith, the rulings of the District Court were affirmed and the offending
attorneys - Max Folkenflik and Cynthia Pollick, respectively - were held legally accountable
to the law for their egregious misconduct, specifically, for intentionally hiding a $30 million
dollar settlement from the court and fabricating attorney’s fees totaling $733,002.23.
More recently, the Third Circuit issued a signed precedential Opinion in Orie v. Dist.
Attv. Allegheny County, 942 F 3d 151 (3rd Circuit 2019) concerning “fraud on the
court...forgery and evidence tampering for introducing fake exhibits...” similar to the
criminal wrongdoing committed by attorneys in Pedro v. City Fitness, wherein the appellate
court held, in pertinent part, as follows^
“Forging evidence is one way to get a mistrial. Jane Orie, a former Pennsylvania state
senator, introduced forged evidence at her trial in state court. So the judge declared
a mistrial. (The exhibits that triggered the mistrial are appended to this
opinion.)... After her second trial, a jury convicted her of forgery, theft of services,
Pennsylvania Ethics Act violations, and related crimes... On the merits, the state
appellate court reasonably upheld the trial court’s finding that a mistrial was
manifestly necessary because the forged documents could have tainted the jury’s
verdict... the prosecution quickly determined that at least two of these exhibits had
forged signatures. See infra Appendix. During the cross-examination of Orie, the
prosecution pointed out that Pavlot’s signature line on one exhibit did not line up
with the other words on the page. See infra Appendix Ex. 10IB. And the prosecution
claims that it noticed duringjury deliberations that Pavlot’s signature on a different
exhibit seemed to have been copied and pasted from another document. Compare
infra Appendix Ex. 101A (original signature), with id. Ex. 110 (copied-andpasted
signature). The prosecution made this discovery only three days after the defense
belatedly turned over these exhibits. The court immediately held a hearing to figure
out what to do about the alleged forgeries. At the hearing, the prosecution called a
handwriting expert, who testified that the signatures on the documents had been
copied and pasted. The defense chose neither to cross-examine the prosecution’s
expert nor to introduce any evidence to contradict the expert’s testimony. The
prosecution asked the court to give the jury a special instruction on these forged
documents. The defense objected to any new jury instructions, saying that it would
prefer a mistrial to a new instruction. But Orie also objected to a mistrial and simply
asked that jury deliberations resume. The court found that the forged documents
were “a fraud on the Court, ” the jury, and the justice system/ “calljedj into suspicion
27

every document that the defense offeredand could undermine any verdict that the
jury might reach. App. 1573a. So it declared a mistrial. After the mistrialthe
prosecution had the Secret Service test the a uthenticity ofthirty-four original defense
exhibits. The Secret Service found that well over a dozen of these exhibits had
handwriting that “may have been reproduced via photocopies.” App. 1695a. It also
found evidence that Pavlot’s signature had been copied andpasted into three exhibits.
As discussed below, after her second trial, Orie was convicted offorgery and evidence
tampering for introducing fake exhibits during her first trial... ”
What distinguishes In re-Bressman. Youns v. Smith and Orie v. Dist. A tty. Alleshenv
County from Pedro v. City Fitness is the judicial conduct of Judge Slomsky and the Third
Circuit - both the merits panel and the full court. The Bankruptcy, District Court and
Circuit Judges who decided In re-' Bressman and Youner and Orie honored the oaths they
swore pursuant to 28 U.S. Code § 453. Oaths of justices and judges., which states in relevant
part, the following: “...I will administer justice without respect to persons, and do equal
right to the poor and to the rich, and that I will faithfully and impartially discharge and
perform all the duties incumbent upon me as

under the Constitution and laws of the

United States. So help me God. ”
Herrins v. US. In re- Bressman. Youns v. Smith. and Hazel-Atlas are all cases where
precedential Opinions were rendered on legal claims of fraud upon the court that were
decided on appeal in the Third Circuit and the Supreme Court, respectively. In each of these
cases, the Appellants pled fraud on the court, and both the Third Circuit and this Court
respectively ruled on the merits of Appellants’ legal claims of fraud upon the court and
issued their decisions in published precedential Opinions as deterrents. Contrarily, the
unsigned, unpublished, not precedential Per Curiam Opinion issued by the merits panel in
Pedro v. City Fitness. LLC., et al. contravenes the rule of law, in that, it failed to rule on
and render a decision on Ms. Pedro’s well-pled legal claims of intentional fraud upon the
28

court and attorney misconduct that are well-preserved in the record of both the District
Court and the Third Circuit.
In Pedro v. City Fitness, LLC., etal.. the merits panel remains silent on the well-pled
legal claims of fraud on court Ms. Pedro set forth in her Opening Appellant Brief filed of
record on 1 April 2019. The silence, inaction and indecision of the merits panel on this
important legal issue causes an intra-circuit conflict of precedent because it is not uniform
with the precedents of the Third Circuit or this Court, which in turn has created an
overwhelming disparity that gives the improper appearance of bias and prejudice against
pro se litigants and favoritism for attorneys who outright lie to federal judges, willfully
break the law and flout the rules of court with impunity when appearing before the federal
judiciary.
In Herring v. US, the Third Circuit issued a precedential Opinion that established
the standard for proof of fraud upon the court and it decided the Appellants’ legal claims of
fraud upon the court, as quoted supra. Refer to p. 30 infra.
In re- Pressman, the Third Circuit issued a precedential Opinion that decided the
Appellant’s legal claims of fraud upon the court, inter alia, as follows^
“...In this appeal we are asked to decide whether Max FolkenHik, Esq., committed
fraud on the court. The Bankruptcy Court determined that Folkenflik had
intentionally deceived the court. As a result, the court vacated the default judgment
it had previously entered in favor ofFolkenflik’s clients. The District Court affirmed.
Finding no error, we will affirm... We conclude that the misconduct at issue here is
sufficiently egregious. Because there is clear, unequivocal, and convincing evidence
showing that Folkenflik committed fraud on the court, we will affirm the judgment
of the District Court... ”

29

Case: 18-1799

Document: 003113249089

Page: 17

Date Filed: 05/24/2019

Table I: Application of the Herring 4-Prong Standard of Proof for the Fraud on the Court Perpetrated in
Civil Action No. 154)4964 bv Deasev. Mahonev & Valentini. LTD.. Rufus Jennings. Carla Mare sea.
The Danek Law Firm. LLC.. Mark Danek and the Appeliees/Defcndants
Elements of the Yes
Herring 4-Prong or
Standard of
No?
Proof for Fraud
on the Court

Offer of Proof and Legal Analysis of the Herring 4-Prong Standard
of Proof for the Fraud on the Court Perpetrated in Civil Action
No. 15-04964 by Deasey, Mahoney & Valentini, LTDn Rufus Jennings,
Carla Maresca, The Danek Law Firm, LLC, Marie Danek and the
Appellees/Defendants

Yes The Forgery of Carmencita Maria Pedro’s printed name and signature on
evidence of legal significance to the litigation was: 1.) intentionally
manufactured as fabricated evidence; 2.) intentionally marked as “Exhibit C;”
3.) intentionally attached to the City Fitness Motion to Dismiss;
4.) intentionally filed of record in the United States District Court for the
Eastern District of Pennsylvania on the Civil Docket Report of Civil Action
No. 15-04964 at Document No. 60, p. 3 - 4; and 5.) intentionally served upon
Ms. Pedro through the United States Postal Service - as evidenced by the
Certificate of Service at Document No. 60, p. 8 signed by Rufus Jennings.
Moreover, Deasey, Mahoney & Valentini, LTD. and Rufus Jennings have
intentionally advocated for The Forgery: 1.) in the Memorandum of Law at
Document No. 60, p. 14 with an explicit reference to The Forgery at footnote
#26, and 2.) in the City Fitness Appellee Brief filed on 29 April 2019 before
the United States Court of Appeals at Case No. 18-1799, wherein they finally
admit that they have always known that The Forgery does flfil contain my
signature AND assert that they intentionally filed and intentionally advocated
for The Forgery to “establish” a nonexistent “timeline,” notwithstanding the
fact that The Forgery is an undated document. Therefore, The Forgery doesgg
and cannot ever “establish” any “timeline” because it is an undated document
FRAUD
Yes Deasey, Mahoney & Valentini, LTD., Rufus Jennings and Carla Maresca
knowingly and willfully acted in collusion and subterfuge with The Danek Law
perpetrated by
Firm, LLC.; Mark Danek; Gordon Rees Scully Mansukhani, LLP., Midtael
an officer of the
Hanan and their clients - the Appellees/Defendants and third parties -and their
court?
other co-conspirators to perpetrate fraud on the court, as delineated supra.
FRAUD directed Yes United States District Court for the Eastern District of Pennsylvania was
the victim of the complete fraud upon the court Deasey, Mahoney & Valentini,
at the court
LTD., Rufus Jennings, Carla Maresca, Hie Danek Law Firm, LLC.,
Itself?
Mark Danek, the Appellees/Defendants and others conspired to successfully
perpetrate in Civil Action No. 15-04964._________________________
FRAUD deceives Yes Judge Joel H. Slomsky was deceived by The Forgery and fabrication
of evidence. Refer to the Judicial Opinion and Judicial Order Judge Slomsky
the court?
entered in favor of the Appellees/Defendants on 30 March 2018 at
Document Nos. 82 and 83.______________________ ____________
The
facial evidence of fraud is clear, unequivocal and convincing on the face
Clear,
Yes
of The Forgery. Refer to Exhibit A.
unequivocal,
convincing
evidence of
FRAUD?

Intentional
FRAUD?

In Youns v. Smith. the Third Circuit issued a precedential Opinion concerning the
misconduct of an attorney who was accused by the court of outright fraud and it ruled, inter
alia, as follows;
“...Appellant Cynthia Pollick appeals the District Court’s order denying her fee
petition, imposing sanctions in the aggregate amount of $25,000, and referring
Pollick to the Disciplinary Board of the Supreme Court ofPennsylvania for unethical
billing practices... the Court believed that Pollick’s billing entries and practices fall
somewhere between gross negligence and outright fraud... We have clearly stated
(although it should not be necessary to emphasize the proposition) that “members of
the bar are quasi-officers of the court and they are expected to be careful and
scrupulously honest in their representations to the court. The District Court’s
meticulous opinion paints a picture ofan attorney whose attitude toward billing and
the court is cavalier in the extreme and whose conduct and demeanor bear no
relationship whatsoever to an attorney’s obligations to the court... We know of no
decision or rule ofprocedure that would suggest that counsel can be as reckless and
irresponsible as Pollick insists she can be in her court flings... ”
In Hazel-Atlas. this Court issued a precedential Opinion that decided the Appellants’
legal claims of fraud upon the court and it upheld the power of a Circuit Court of Appeals to
vacate its own judgment upon proof that fraud was perpetrated by a successful litigant.
inter alia, as follows:
“... This case involves the power of a Circuit Court ofAppeals, upon proof that fraud
was perpetrated on it by a successful litigant, to vacate its own judgment... Every
element of the fraud here disclosed demands the exercise of the historic power of
equity to set aside fraudulently begotten judgments. This is not simply a case of a
judgment obtained with the aid of a witness who, on the basis of after-discovered
evidence, is believed possibly to have been guilty ofperjury. Here, even if we consider
nothing but Hartford’s sworn admissions, we End a deliberately planned and
carefully executed scheme to defraud not only the Patent Office but the Circuit Court
ofAppeals... Since the judgments of 1932 therefore must be vacated, the case now
stands in the same position as though Hartford’s corruption had been exposed at the
original trial. In this situation the doctrine of the Keystone case, supra, requires that
Hartford be denied relief To grant full protection to the public against a patent
obtained by fraud, that patent must be vacated... ”
In his concurrence with the Supreme Court’s decision in Hazel-Atlas. Chief Justice
Roberts ruled, inter alia, the following:
31

“...No fraud is more odious than an attempt to subvert the administration ofjustice.
The court is unanimous in condemning the transaction disclosed by this record... It
is complained that members of the bar have knowingly participated in the fraud.
Remedies are available to purge recreant officers from the tribunals on whom the
fraud was practiced... ”
To summarize

an attorney who willfully withheld the existence of prior

judgments/settlements from the court [Max Folkenflik] and an attorney who overinflated
and falsified her legal fees [Cynthia Pollick] were both appropriately subjected to the public
condemnation of the Third Circuit by and through its precedential decisions [In reBressman and Youns v. Smith, respectively]. Therefore, it is incomprehensible that
attorneys

who

are

complicit

in

and

culpable

for

forging

the

pro

se

Plaintiffs/Appellant’s/Petitioner’s signature and printed/handwritten name on fabricated
evidence of legal significance to the proceedings that they then intentionally filed, and
intentionally served through the U.S. Postal Service, and have intentionally and repeatedly
pled in furtherance of for three (3) years [Attorney Jennings and Attorney Mark Danek and
their co-conspirators] have been exonerated by and through an unsigned, unpublished, not
precedential Per Curiam Opinion issued by the merits panel [Pedro v. City Fitness. LLC.,
et al.]. This inconsistency in judicial decisions on fraud upon the court creates an intra­
circuit conflict of precedent that contravenes the Third Circuit’s very own Rules of Attorney
Disciplinary Enforcement at Rule 2. Grounds for Discipline and sows confusion and causes
deep concern for the public as to the proper legal standard for the lawful conduct of attorneys
who appear before the federal judiciary.
Notwithstanding the binding legal precedents established by Herrins v. US. In re-'
Bressman, Youns v. Smith, and Hazel-Atlas, the facts of Pedro v. City Fitness, et al.. and
clear, unequivocal and convincing evidence in the appellate record proving that intentional
32

fraud was indeed committed in Civil Action No. 15-04964 by officers of the court which was
directed at the court itself and did in fact deceive the District Court - and now, the Third
Circuit - the merits panel and the full court failed and refused to decide Ms. Pedro’s wellpled legal claims of intentional fraud upon the court, and it also failed and refused to rule
on the egregious misconduct committed by Attorney Jennings and his co-conspirators
during, in connection with and collateral to the legal proceedings, who are complicit in and
culpable for The FORGERY of Ms. Pedro’s signature and printed/handwritten name on
fabricated evidence of legal significance to the litigation.
Judge Slomsky and both the merits panel and the full court of the Third Court
abdicated their judicial duty: l.) by refusing to enforce the rule of law and protect the
integrity and independence of the federal judiciary in Pedro v. City Fitness, and 2.) by failing
to hold Attorney Jennings and his co-conspirators legally accountable to the law. Instead,
Judge Slomsky and the Third Circuit granted unlawful judgment to City Fitness, LLC., et
al. - to which they have never had any fundamental right and absolutely no legal
entitlement as a matter of law — as a reward for the intentional fraud upon the court they
conspired and successfully committed with Deasey, Mahoney & Valentini, LTD., Attorney
Jennings and City Fitness, LLC., et al. and others known and unknown predicated on
The FORGERY of Ms. Pedro’s signature and printed/handwritten name on fabricated
evidence of legal significance to the litigation.
As evidenced by the contents of his 39-page Opinion about Ms. Pedro — which reads
like a defense brief written for, and on behalf of and with deep-seated favoritism for City
Fitness, LLC., et al. - Judge Slomsky believes that women of color have no human right,
and no fundamental right, and no legal right, and no civil right to lawfully protest, object or
33

oppose illegal discrimination and illegal retaliation or to engage in any protected civil rights
activities in protected opposition to the same. Furthermore, the substance of Judge
Slomsky’s Opinion of Ms. Pedro makes his animus, his inherent bias and prejudice and the
deep-seated antagonism he harbors against her patently obvious.
In sum, Judge Slomsky ruled in favor of The FORGERY, and the fabricated evidence
and deliberate false statements of material facts Deasey, Mahoney & Valentini, LTD.,
Attorney Jennings and Defendant City Fitness, LLC., et al. submitted to him in legal
proceedings under his jurisdiction and authority in Civil Action No. 15-04964 notwithstanding the fact that the falsity, inauthenticity, illegitimacy and invalidity of
The FORGERY is overwhelmingly substantiated on its face and exemplars Ms. Pedro’sauthentic signature and handwriting are replete in the record of Pedro v. City Fitness. LLC.,
et al. before the District Court, as well as before the Third Circuit and now before the
Supreme Court as indicated within this Petition and the attached Motion to Proceed In
Forma Pauperis.
Ultimately, Judge Slomsky decided to willfully turn an intentional blind eye to Fed.
R. Evid. Rule 901 Authenticating or Identifying Evidence, which mandates, inter alia, the
following:
(a) In General. To satisfy the requirement ofauthenticating or identifying an item of
evidence, the proponent must produce evidence sufficient to support a finding that
the item is what the proponent claims it is. (b) Examples. The following are examples
only — not a complete list — of evidence that satisfies the requirement’...
(3) Comparison by an Expert Witness or the Trier of Fact. A comparison with an
authenticated specimen by an expert witness or the trier offact. [Emphasis supplied.]
By and through his Opinion and Order entered on 30 March 2018, Judge Slomsky
confirmed that Deasey, Mahoney & Valentini, LTD., Attorney Jennings, City Fitness, LLC.,
34

et al., and its Owners — Kenneth Davies and Carl Geiger — are indeed afforded preferential
treatment and special privileges, such that they have been granted judicial authorization to
outright lie to the court and forge Ms. Pedro’s signature and printed/handwritten name on
legally significant evidence - namely: City Fitness employment documents - that they
admittedly fabricated and have admittedly falsely pled in furtherance of for the last three
(3) years, and which they admittedly maintain in a secret personnel file and admittedly file
in federal court for false, improper and illegal purposes. In doing so, Judge Slomsky illegally
authorized private sector employers to forge the signatures of their employees

on

employment documents for filing as evidence in legal proceedings before the federal
judiciary. Moreover, Judge Slomsky has illegally sanctioned white men forging the
signatures of women of color simply because they are women and persons of color.
Yet, the Opinion entered by the merits panel in Pedro v. City Fitness on 20 February
2020 failed to adjudicate Ms. Pedro’s legal claims of fraud on the court, thereby exonerating
and inoculating the offending attorneys and protecting Judge Slomsky from public scrutiny
of his improper, unethical and unlawful judicial conduct. Conspicuously absent from the
Opinion of the merits panel is a decision on the fraud upon the court that was committed in
Pedro v. City Fitness. LLC., et al. and condemnation of the attorneys who are complicit in
and culpable for forging Ms. Pedro’s signature and printed/handwritten name on evidence
of legal significance to the proceedings. The conspicuous absence of both a decision on the
fraud upon the court and a definitive ruling on the egregious attorney misconduct that has
occurred in the legal proceedings of Pedro v. City Fitness, et al. establishes a substandard
practice of law for attorneys that substantially deviates from the binding precedents held
by the Supreme Court in Hazel-Atlas and by the Third Circuit In re- Bressman and Young
35

v. Smith, all of which resoundingly condemn fraud on the court, hold attorneys who commit
egregious misconduct legally accountable to the rule of law, and vociferously uphold the rule
of law to preserve the integrity and independence of the federal judiciary. On 12 May 2020,
the majority of available active judges of the Third Circuit denied Ms. Pedro’s Petition for
Rehearing En Banc on the Fraud Upon the Court Attorneys Successfully Committed in Civil
Action No. 15-Q4964 Predicated on Forgery and Fabrication of Evidence Pursuant to Fed.
R. Ann. P. 35(a)(1). which has given rise to the filing of this Petition.
All the above - singularly and collectively - emboldens other attorneys and parties to
likewise enter federal courts with unclean hands in a corrupt endeavor to obstruct justice
and intentionally defraud the federal judiciary with fabricated evidence believing that they
too can prevail and procure an unlawful judgment in their favor to which they have no
fundamental right or legal entitlement.
In his 2019 Year-End Report on the Federal Judiciary at p. 4, Chief Justice John G.
Roberts wrote, inter alia, the following:
"... When judges render their judgments through written opinions that explain their
reasoning, they advance public understanding of the law. ChiefJustice Earl Warren
illustrated the power of a judicial decision as a teaching tool in Brown v. Board of
Education, the great school desegregation case. His unanimous opinion on the most
pressing issue of the era was a mere 11 pages—short enough that newspapers could
publish all or almost all ofit and every citizen could understand the Court’s rationale.
Today, federal courts post their opinions online, giving the public instant access to
the reasoning behind the judgments that affect their lives... I ask my judicial
colleagues to continue their efforts to promote public confidence in the judiciary, both
through their rulings and through civic outreach. We should celebrate our strong and
independent judiciary, a key source of national unity and stability. But we should
also remember that justice is not inevitable. We should reflect on our duty to judge
without fear or favor, deciding each matter with humility, integrity, and dispatch. As
the New Year begins, and we turn to the tasks before us, we should each resolve to
do our best to maintain the public’s trust that we are faithfully discharging our
solemn obligation to equaljustice under law... ”
36

In short, the silence, inaction and indecision of the Third Circuit in response to the
intentional fraud on the court committed in Pedro v. City Fitness, LLC., etal. and the clear,
unequivocal and convincing evidence of forgery and false evidence in the District Court
record and appellate record does not engender the public’s confidence in the judiciary or the
public’s trust that the federal judiciary is faithfully discharging its solemn obligation to
equal justice under the law in adherence to the Due Process Clauses of the Fifth and
Fourteenth Amendments to the United States Constitution or the 2019 Year-End mandate
of Chief Justice Roberts.
The truth is that fraud on the court, forgery, falsification of evidence, illegal
misclassification of employees as independent contractors, and the illegal nonpayment of
the federal minimum wage are all fraudulent activities that are illegal as a matter of law
and the decision of any federal court or federal judge which renders any one of these
fraudulent activities legal effectively denies equal justice under law to Ms. Pedro and to any
and all others similarly situated who may appear before the federal judiciary.
The appellate record before the Third Circuit is replete with clear, unequivocal and
convincing evidence proving: l.) that The FORGERY is a fake employment document which
was manufactured by City Fitness, LLC.; 2.) that Attorney Jennings willfully filed
The FORGERY of record and served it through the U.S. Postal Service knowing of its falsity!
3.) that Attorney Jennings has repeatedly plead in furtherance of The FORGERY knowing
of its falsity to intentionally defraud both the District Court and the Third Circuit! and
4.) that Attorney Jennings has in fact succeeded in his corrupt endeavor to intentionally
defraud the District Court and the Third Circuit with The FORGERY, as evidenced by the
Opinions and Orders that have been entered of record in Pedro v. City Fitness. LLC., et al.
37

All the above is well-pled in the Opening Appellant Brief Ms. Pedro filed of record in
the Third Circuit on 1 April 2019, and it also well-pled elsewhere in the appellate record
[Case No. 18-1799], including, but not limited to: l.) in her Appellant Reply Brief filed on
8 July 2019, and 2.) in her sworn Affidavit attesting to the falsity of The FORGERY dated
6 August 2018 and 23 May 2019 and filed on 7 August 2018 and 24 May 2019, respectively;
as well as within the District Court record [Civil Action No. 15-04964] where Ms. Pedro
reported the fraudulent activities and criminal wrongdoing that were occurring under Judge
Slomsky’s jurisdiction and authority, specifically: 3.) in her Response in Opposition (to the
Defendants’ Motions to Dismiss) filed on 2 October 2017 [Document No. 64], 4.) in her
Motion for Default Judgment filed on 12 January 2018 [Document No. 69], and 5.) in her
Reply Brief in Support of the Motion for Default Judgment filed on 2 February 2018
[Document No. 78].
Based on the foregoing, City Fitness, LLC., et al. has never had any fundamental
right or legal entitlement to any judgment or relief in their favor - in whole or in part.
The grant of judgment and relief to City Fitness, LLC., et al. effectively rewards them and
their attorneys for successfully perpetrating intentional fraud upon the court, thereby
constituting an unlawful judgment.
Because the truth still exists and the truth still matters, Ms. Pedro respectfully
submits this Petition seeking this Court’s exercise of its supervisory authority as a matter
of public interest to right the fundamental and egregious wrong that has been caused and
created by the abdication of judicial duty within the Third Circuit, which has unlawfully
granted judgment and relief to City Fitness, LLC., et al. as a reward for their vicious attack
against the integrity and independence of the federal judiciary. The judgment of the Third
38

Circuit in Pedro v. City Fitness. LLC., et al. now stands as an affront to the Constitution,
and it offends the civil rights to due process and equal protection under law that are to be
afforded to all parties to legal proceedings before the federal judiciary.
The attorney misconduct detailed herein is singularly and collectively demonstrative
of clear, unequivocal and convincing evidence of intentional fraud upon the court, and it
violates, inter alia, the following federal criminal statutes: 18 U.S.C. § 1512 - Witness
Tampering; 18 U.S.C. § 1503 - Obstructing Federal Courts! 18 U.S.C. § 371 - Conspiracy to
Obstruct! and 18 U.S.C. § 1341 - Obstruction by Mail Fraud — for which Attorney Jennings
and his co-conspirators have gotten off scot-free as of the instant date.
Consistent with the 2019 Year-End ask of Chief Justice Roberts, Ms. Pedro respectfully
calls upon this Court as a matter of public interest to right the fundamental and egregious
wrong committed by the Third Circuit because it: 1.) undermines public confidence in the
integrity and independence of the judiciary, and 2.) the destroys the public’s trust that the
federal judiciary is faithfully discharging its solemn obligation to equal justice under law,
and 3.) calls into question the propriety Judge Slomsky’s conduct and the legality of the
Opinions and Orders he has entered in civil actions and criminal cases elsewhere.
CONCLUSION
All the above, singularly and collectively, is in fact unequivocal and convincing
evidence of intentional fraud upon the court that has intentionally deprived Ms. Pedro of
her constitutional rights. As there is no finality to any judgment unlawfully procured by
fraud pursuant to the stare decisis of Hazel-Atlas Co. v. Hartford Co., 322 US238 (Supreme
Court 1944). the Petition for Writ of Certiorari should be granted.

39

1

Respectfully submitted.

r

Carmencita Maria Peafo
pro se Petitioner

Date: Friday, 9 October 2020

40

/

